               Department of Veterans Affairs
               Office of Inspector General


                    Office of Healthcare Inspections

Report No. 14-00224-83




 Community Based Outpatient Clinic 

  and Primary Care Clinic Reviews 

                at 

    Orlando VA Medical Center 

          Orlando, Florida 





February 27, 2014

                        Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations 

                    Telephone: 1-800-488-8244 

                   E-Mail: vaoighotline@va.gov

         (Hotline Information: www.va.gov/oig/hotline)

                                   CBOC and PCC Reviews at Orlando VA Medical Center, Orlando, FL



                                            Glossary
                       AUD        alcohol use disorder
                       CBOC       community based outpatient clinic
                       DWHP       designated women’s health provider
                       EHR        electronic health record
                       EOC        environment of care
                       MH         mental health
                       MI         motivational interviewing
                       MM         medication management
                       NM         not met
                       OIG        Office of Inspector General
                       PACT       Patient Aligned Care Teams
                       PCC        primary care clinic
                       PCP        primary care provider
                       RN         registered nurse
                       VHA        Veterans Health Administration
                       VISN       Veterans Integrated Service Network
                       WH         women’s health




VA OIG Office of Healthcare Inspections
                                             CBOC and PCC Reviews at Orlando VA Medical Center, Orlando, FL



                                            Table of Contents 

                                                                                                                             Page 

Executive Summary ...................................................................................................              i


Objectives, Scope, and Methodology.......................................................................                          1

  Objectives ...............................................................................................................       1

  Scope......................................................................................................................      1

  Methodology ...........................................................................................................          1


Results and Recommendations ................................................................................                       3

  EOC ........................................................................................................................     3

  AUD ........................................................................................................................     6

  MM ..........................................................................................................................    7

  DWHP Proficiency ..................................................................................................              8


Appendixes
  A. CBOC Profiles and Services Provided ..............................................................                            9

  B. PACT Compass Metrics ....................................................................................                    12

  C. VISN Director Comments ..................................................................................                    16

  D. Facility Director Comments ...............................................................................                   17

  E. OIG Contact and Staff Acknowledgments .........................................................                              21

  F. Report Distribution .............................................................................................            22

  G. Endnotes ...........................................................................................................         23





VA OIG Office of Healthcare Inspections
                                   CBOC and PCC Reviews at Orlando VA Medical Center, Orlando, FL



                                Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected patient care
activities to determine whether the community based outpatient clinics (CBOCs) and
primary care clinics (PCCs) provide safe, consistent, and high-quality health care for our
veterans. We conducted site visits during the week of January 13, 2014, at the
Kissimmee, FL and Orange City, FL, CBOCs, which are under the oversight of the
Orlando VA Medical Center and Veterans Integrated Service Network 8.

Review Results: We conducted four focused reviews. We had no findings for the
Medication Management and Designated Women’s Health Provider Proficiency reviews.
However, we made recommendations in the following two review areas:

Environment of Care (EOC). Ensure that:

	   Panic alarms at the Kissimmee and Orange City CBOCs are tested, testing
     documentation is maintained in the CBOCs, and results are reported to the EOC
     Committee.

	   Fire drills are conducted at the Kissimmee CBOC as required.

	   Deficiencies identified on EOC rounds at the Kissimmee and Orange City CBOCs
     are reported to the EOC Committee and actions taken are tracked to completion.

Alcohol Use Disorder. Ensure that CBOC/PCC Nurse Care Managers complete
motivational interviewing and health coaching training within 12 months of appointment
to Patient Aligned Care Teams.

Comments
The VISN and Facility Directors agreed with the CBOC and PCC review findings and
recommendations and provided acceptable improvement plans. (See Appendixes C-D,
pages 16–20, for the full text of the Directors’ comments.) We will follow up on the
planned actions until they are completed.




                                                          JOHN D. DAIGH, JR., M.D. 

                                                         Assistant Inspector General for 

                                                            Healthcare Inspections





VA OIG Office of Healthcare Inspections                                                        i
                                        CBOC and PCC Reviews at Orlando VA Medical Center, Orlando, FL



                    Objectives, Scope, and Methodology 

Objectives
The CBOC and PCC reviews are an element of the OIG’s efforts to ensure that our
Nation’s veterans receive high-quality VA health care services. As such, the CBOC and
PCC reviews are recurring evaluations of selected primary care operations that focus on
patient care quality and the EOC. In general, our objectives are to:

      	   Determine whether the CBOCs are compliant with EOC requirements.

      	   Determine whether CBOCs/PCCs are compliant with VHA requirements in the
           care of patients with AUD.

      	   Determine compliance with requirements for the clinical oversight and patient
           education of fluoroquinolones for outpatients.

      	   Evaluate if processes are in place for DWHPs to maintain proficiency in WH.

Scope
To evaluate for compliance with requirements related to patient care quality and the
EOC, we conducted onsite inspections, reviewed clinical and administrative records,
and discussed processes and validated findings with managers and employees. The
review covered the following four activities:

      	   EOC

      	   AUD

      	   MM

      	   DWHP Proficiency

The scope of this review was limited to the established objectives. Issues and concerns
that come to our attention that are outside the scope of this standardized inspection will
be reviewed and referred accordingly.

Methodology
The onsite EOC inspections were only conducted at randomly selected CBOCs that had
not been previously inspected.a Details of the targeted study populations for the AUD,
MM, and DWHP Proficiency focused reviews are noted in Table 1.




a
    Includes 93 CBOCs in operation before March 31, 2013.


VA OIG Office of Healthcare Inspections                                                             1
                                        CBOC and PCC Reviews at Orlando VA Medical Center, Orlando, FL


Table 1. CBOC/PCC Focused Reviews and Study Populations

      Review Topic                                     Study Population
                               All CBOC and PCC patients screened within the study period
                               of July 1, 2012, through June 30, 2013, and who had a positive
           AUD
                               AUDIT-C scoreb and all providers and RN Care Managers
                               assigned to PACT prior to October 1, 2012.
                               All outpatients with an original prescription ordered for one of
            MM                 the three selected fluoroquinolones from July 1, 2012, through
                               June 30, 2013.
                               All WH PCPs designated as DWHPs as of October 1, 2012,
    DWHP Proficiencies
                               and who remained as DWHPs until September 30, 2013.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

The review was done in accordance with OIG standard operating procedures for CBOC
and PCC reviews.




b
 The AUDIT-C is a brief alcohol screen that reliably identifies patients who are hazardous drinkers or have active
alcohol use disorders. Scores range from 0-12.


VA OIG Office of Healthcare Inspections                                                                              2
                                             CBOC and PCC Reviews at Orlando VA Medical Center, Orlando, FL



                          Results and Recommendations 

EOC
The purpose of this review was to evaluate whether CBOC managers have established and
maintained a safe and clean EOC as required.1

We reviewed relevant documents pertinent to all CBOCs, and conducted physical inspections of
the Kissimmee and Orange City CBOCs. The table below shows the areas reviewed for this
topic.   The areas marked as NM did not meet applicable requirements and needed
improvement.
Table 2. EOC

NM                      Areas Reviewed                                       Findings
       The CBOC’s location is clearly identifiable
       from the street as a VA CBOC.
       The CBOC has interior signage available that
       clearly identifies the route to and location of
       the clinic entrance.
       The CBOC is accessible in accordance with
       the Americans with Disabilities Act.
       The furnishings are clean and in good repair.
       The CBOC is clean.
       The CBOC maintains a written, current
       inventory of hazardous materials and waste
       that it uses, stores, or generates.
                                                          Panic alarms at both CBOCs were not
       An alarm system and/or panic buttons are
                                                          consistently tested. When testing did occur,
 X     installed in high-risk areas (e.g., MH clinic)
                                                          results were not reported to the EOC
       and appropriately tested and maintained.
                                                          Committee.
       Alcohol hand wash or soap dispenser and
       sink are available in the examination rooms.
       Sharps containers are secured.
       Safety needle devices are available.
       The CBOC has a separate storage room for
       storing medical (infectious) waste.
       The CBOC conducts fire drills at least every       The Kissimmee CBOC did not conduct fire drills
 X
       12 months.                                         at least every 12 months.
       Means of egress from the building are
       unobstructed.
       Access to fire alarm pull stations is
       unobstructed.
       Access to fire extinguishers is unobstructed.




VA OIG Office of Healthcare Inspections                                                                    3
                                            CBOC and PCC Reviews at Orlando VA Medical Center, Orlando, FL


NM                  Areas Reviewed (cont.)                                  Findings
       The CBOC has signs identifying the locations
       of fire extinguishers.
       Exit signs are visible from any direction.
       No expired medications were noted during the
       onsite visit.
       All medications are secured from
       unauthorized access.
       Personally identifiable information is protected
       on laboratory specimens during transport so
       that patient privacy is maintained.
       Adequate privacy is provided to patients in
       examination rooms.

       Documents containing patient-identifiable
       information are not visible or unsecured.

       Window coverings provide privacy.
       The CBOC has a designated examination
       room for women veterans.
       Adequate privacy is provided to women
       veterans in the examination room.
       The Information Technology network
       room/server closet is locked.
       All computer screens are locked when not in
       use.
       Staff use privacy screens on monitors to
       prevent unauthorized viewing in high-traffic
       areas.
       EOC rounds are conducted semi-annually (at         EOC rounds were conducted at both CBOCs;
 X     least twice in a 12-month period) and reported     however, deficiencies identified were not
       to the EOC Committee.                              reported to the EOC Committee.
       The CBOC has an automated external
       defibrillator.
       Safety inspections are performed on the
       CBOC medical equipment in accordance with
       Joint Commission standards.
       The parent facility includes the CBOC in
       required education, training, planning, and
       participation leading up to the annual disaster
       exercise.




VA OIG Office of Healthcare Inspections                                                                 4
                                           CBOC and PCC Reviews at Orlando VA Medical Center, Orlando, FL


NM                 Areas Reviewed (cont.)                                  Findings
       The parent facility’s Emergency Management
       Committee evaluates CBOC emergency
       preparedness activities, participation in annual
       disaster exercise, and staff training/education
       relating to emergency preparedness
       requirements.

Recommendations

1. We recommended that panic alarms are tested as required and testing is documented at
the Kissimmee and Orange City CBOCs.

2. We recommended that panic alarm testing results are reported to the EOC Committee, and
repairs or corrections of alarm failures are tracked to completion by the EOC Committee.

3.   We recommended that fire drills are performed every 12 months at the Kissimmee CBOC.

4. We recommended that all deficiencies identified on EOC rounds at the Kissimmee and
Orange City CBOCs are reported to the EOC Committee, and actions taken are tracked to
completion.




VA OIG Office of Healthcare Inspections                                                                5
                                           CBOC and PCC Reviews at Orlando VA Medical Center, Orlando, FL


AUD
The purpose of this review was to determine whether the facility’s CBOCs and PCCs complied
with selected alcohol use screening and treatment requirements.2

We reviewed relevant documents. We also reviewed 40 EHRs and validated findings with key
managers and staff. The table below shows the areas reviewed for this topic. The areas
marked as NM did not meet applicable requirements and needed improvement.

Table 3. AUD

NM                   Areas Reviewed                                          Findings
       Alcohol use screenings are completed during
       new patient encounters, and at least annually.
       Diagnostic assessments are completed for
       patients with a positive alcohol screen.
       Education and counseling about drinking
       levels and adverse consequences of heavy
       drinking are provided for patients with positive
       alcohol screens and drinking levels above
       National Institute for Alcohol Abuse and
       Alcoholism guidelines.
       Documentation reflects the offer of further
       treatment for patients diagnosed with alcohol
       dependence.
       For patients with AUD who decline referral to
       specialty care, CBOC/PCC staff monitored
       them and their alcohol use.
       Counseling, education, and brief treatments
       for AUD are provided within 2 weeks of
       positive screening.
       CBOC/PCC RN Care Managers have                     9 of 10 RN Care Managers did not receive MI
 X     received MI training within 12 months of           training within 12 months of appointment to
       appointment to PACT.                               PACT.
       CBOC/PCC RN Care Managers have
       received VHA National Center for Health
                                                          8 of 10 RN Care Managers did not receive
       Promotion and Disease Prevention-approved
 X                                                        health coaching training within 12 months of
       health coaching training (most likely TEACH
                                                          appointment to PACT.
       for Success) within 12 months of appointment
       to PACT.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

5. We recommended that CBOC/PCC RN Care Managers complete MI and health coaching
training within 12 months of appointment to PACT.


VA OIG Office of Healthcare Inspections                                                                  6
                                            CBOC and PCC Reviews at Orlando VA Medical Center, Orlando, FL


MM
The purpose of this review was to determine whether appropriate clinical oversight and
education were provided to outpatients prescribed oral fluoroquinolone antibiotics.3

We reviewed relevant documents. We also reviewed 40 EHRs and validated findings with key
managers and staff. The table below shows the areas reviewed for this topic. The facility
generally met requirements. We made no recommendations.

Table 4. Fluoroquinolones

NM                    Areas Reviewed                                        Findings
       Clinicians documented the medication
       reconciliation process that included the
       fluoroquinolone.
       Written information on the patient’s prescribed
       medications was provided at the end of the
       outpatient encounter.
       Medication counseling/education for the
       fluoroquinolone was documented in the
       patients’ EHRs.
       Clinicians documented the evaluation of each
       patient’s level of understanding for the
       education provided.

       The facility complied with local policy.




VA OIG Office of Healthcare Inspections                                                                 7
                                          CBOC and PCC Reviews at Orlando VA Medical Center, Orlando, FL


DWHP Proficiency
The purpose of this review was to determine whether the facility’s CBOCs and PCCs complied
with selected DWHP proficiency requirements.4

We reviewed the facility self-assessment, VHA and local policies, Primary Care Management
Module data, and supporting documentation for DWHPs’ proficiencies. The table below shows
the areas reviewed for this topic. The facility generally met requirements. We made no
recommendations.

Table 5. DWHP Proficiency
 NM                   Areas Reviewed                                      Findings
       CBOC and PCC DWHPs maintained
       proficiency requirements.
       CBOC and PCC DWHPs were designated
       with the WH indicator in the Primary Care
       Management Module.




VA OIG Office of Healthcare Inspections                                                               8
                                                                                 CBOC and PCC Reviews at Orlando VA Medical Center, Orlando, FL
                                                                                                                                   Appendix A


                                                                  CBOC Profiles 

This review evaluates the quality of care provided to veterans at all of the CBOCs under the parent facility’s oversight.c
The table below provides information relative to each of the CBOCs.

                                                                                            d
                                                                                   Uniques                                    Encountersb

                             Station                   CBOC
                                        Localitye                        g
       Location      State                                           MH         PCh       Otheri       All       MHg        PCh       Otheri       All
                                #                       Sizef
    Viera             FL      675GA       Urban      Very Large      6,406    19,814      23,964     24,988     42,715     66,145    243,435     352,295
    Daytona Beach     FL      675GB       Urban      Very Large      3,848    16,344      18,827     19,393     31,732     42,564    131,564     205,860
    Leesburg (Lake
                      FL      675GE       Urban       Mid-Size        600      4,157      3,629       4,763     3,041      8,799     12,896      24,736
    County)
    Kissimmee         FL      675GC       Urban       Mid-Size       1,288     4,106      2,493       4,463     5,378      14,188     8,303      27,869
    Orange City       FL      675GD       Rural       Mid-Size       1,032     3,822      2,439       4,102     4,225      11,004     8,483      23,712
    Clermont          FL      675GF       Urban       Mid-Size        611      2,490      2,269       3,254     2,076      6,111      5,742      13,929




c
  Includes all CBOCs in operation before March 31, 2013. 

d
   Unique patients and Total Encounters – Source: MedSAS outpatient files; completed outpatient appointments indicated by a valid stop code during the 

July 1, 2012, through June 30, 2013, timeframe at the specified CBOC. 

e
  http://vaww.pssg.med.va.gov/PSSG/DVDC/FY2013_Q1_VAST.xlsx

f
  Based on the number of unique patients seen as defined by VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics, 

September 11, 2008, the size of the CBOC facility is categorized as very large (> 10,000), large (5,000-10,000), mid-size (1,500-5,000), or small (< 1,500).

g
  Mental Health includes stop codes in the 500 series, excluding 531 and 563, in the primary position. 

h
  Primary Care includes the stop code list in the primary position: 323 – Primary Care; 322 – Women’s Clinic; 348 – Primary Care Group; 350 – Geriatric 

Primary Care; 531 – MH Primary Care Team-Individual; 563 – MH Primary care Team-Group; 170 – Home Based Primary Care (HBPC) Physician. 

i
  All other non-Primary Care and non-MH stop codes in the primary position.


VA OIG Office of Healthcare Inspections                                                                                                                    9
                                       CBOC and PCC Reviews at Orlando VA Medical Center, Orlando, FL


                                   CBOC Services Provided 

In addition to primary care integrated with WH and MH care, the CBOCs provide various
specialty care, ancillary, and tele-health services. The following table lists the services
provided at each CBOC.j

                                                                                               Tele-Health
       CBOC          Specialty Care Servicesk               Ancillary Servicesl
                                                                                                Servicesm
    Viera                       Dental                         Laboratory                   Tele Primary Care
                              Optometry                         Radiology
                             Orthopedics                        Audiology
                               Podiatry                         Pharmacy
                               Surgery                        Rehabilitation
                          Gastroenterology               Computer Tomography
                              Cardiology                  Prosthetics/Orthotics
                                                                             n
                               Urology                     MOVE! Program
                              Pain Clinic                    Sleep Medicine
                           Ophthalmology                         Nutrition
                          General Surgery               Pulmonary Function Test
                        Ear, Nose and Throat                 Mammography
                              Neurology                    Nuclear Medicine
                             Immunology                Diabetic Retinal Screening
                              Pulmonary                      Diabetes Care
                         Infectious Disease                      Surgery
                        Medicine Specialties              Respiratory Therapy
                              Geriatrics                       Social Work
                                                           Spinal Cord Injury
                                                                        o
                                                                  VIST
                                                          Electrocardiography
                                                     Enterostomal Wound/Skin Care
    Daytona Beach             Optometry                         Laboratory                  Tele Primary Care
                               Podiatry                          Radiology
                                 Dental                          Pharmacy
                              Orthopedics                        Audiology
                            Rheumatology                       Rehabilitation
                                Urology                      MOVE! Program
                          Infectious Disease                  Diabetes Care
                            Endocrinology                 Computer Tomography
                                                               Social Work
                              Cardiology
                                                        Diabetic Retinal Screening
                              Pain Clinic
                                                           Electrocardiography
                                                      Enterostomal Wound/Skin Care
                                                       Magnetic Resonance Imaging
                                                           Prosthetics/Orthotics
                                                              Sleep Medicine

j
  Source: MedSAS outpatient files; the denoted Specialty Care and Ancillary Services are limited to Primary Clinic

Stops with a count ≥ 100 encounters during the July 1, 2012, through June 30, 2013, timeframe at the specified 

CBOC. 

k
  Specialty Care Services refer to non-Primary Care and non-Mental Health services provided by a physician. 

l
  Ancillary Services refer to non-Primary Care and non-Mental Health services that are not provided by a physician. 

m
  Tele-Health Services refer to services provided under the VA Telehealth program (http://www.telehealth.va.gov/) 

n
  VHA Handbook 1120.01, MOVE! Weight Management Program for Veterans, March 31, 2011. 

o
  The Visual Impairment Services Team (VIST) is a group of case managers that coordinate services for severely
disabled and visually impaired Veterans and active duty service members.

VA OIG Office of Healthcare Inspections                                                                         10
                                    CBOC and PCC Reviews at Orlando VA Medical Center, Orlando, FL

                                                    Respiratory Therapy
                                                         Nutrition
                                                  Pulmonary Function Test
                                                           VIST
    Leesburg             Dermatology                     Pharmacy              Tele Primary Care
    (Lake County)                                       Social Work
                                                 Diabetic Retinal Screening
                                                       Diabetes Care
                                                      MOVE! Program
    Kissimmee                 ---                        Pharmacy              Tele Primary Care
                                                       Diabetes Care
                                                 Diabetic Retinal Screening
    Orange City               ---                       Social Work            Tele Primary Care
                                                       Diabetes Care
                                                 Diabetic Retinal Screening
    Clermont                  ---                        Audiology             Tele Primary Care
                                                 Diabetic Retinal Screening
                                                    Electrocardiography
                                                       Diabetes Care
 




VA OIG Office of Healthcare Inspections                                                            11
                                                                                                CBOC and PCC Reviews at Orlando VA Medical Center, Orlando, FL
                                                                                                                                                  Appendix B


                                                                        PACT Compass Metrics
                                                   FY 2013 Average 3rd Next Available in PC Clinics
                                50.0
                                45.0
                                40.0
     Average  Number  of Days




                                35.0
                                30.0
                                25.0
                                20.0
                                15.0
                                10.0
                                 5.0
                                 0.0
                                                                                    Daytona Beach                      Orange City   Leesburg   Clermont
                                       VHA Total   Orlando  (675)   Viera (675GA)                   Kissimee (675GC)
                                                                                       (675GB)                          (675GD)       (675GE)   (675GF)
                    OCT FY13             14.6           22.6            10.5            20.5              35.8             8.6         21.7       16.3
                    NOV FY13             15.2           19.2            11.8            19.1              29.0            11.9         10.9       10.2
                    DEC  FY13            13.8           20.6            10.6            13.7              33.1             9.5         15.9        8.8
                    JAN FY13             14.0           24.7            14.3            20.8              33.3             5.3         17.8       12.8
                    FEB  FY13            14.8           19.4            10.2            29.2              28.5            16.1         15.0       17.8
                    MAR  FY13            13.3           21.0             8.4            17.1              28.6            22.0         28.1       24.9
                    APR  FY13            14.4           19.9            15.9            17.9              28.3             7.8         29.6        8.4
                    MAY  FY13            16.0           22.5            13.9            14.3              32.8            14.6         18.9        8.1
                    JUN  FY13            14.2           13.0            12.3            19.5              21.4            13.5         10.7        6.8
                    JUL FY13             14.6           12.6            28.6            15.3              27.4             9.3         12.3        7.2
                     AUG  FY13           15.7           16.3            17.8            16.5              36.0            17.0         13.6       11.5
                     SEP  FY13           13.4           17.2            16.4            18.1              43.1            16.4         10.3       16.5


 Data Definition.5 The average waiting time in days until the next third open appointment slot for completed primary care appointments in stop code 350.
 Completed appointments in stop code 350 for this metric include completed appointments where a 350 stop code is in the primary position on the
 appointment or one of the telephone stop codes is in the primary position, and 350 stop code is in the secondary position. The data is averaged from the
 national to the division level.

VA OIG Office of Healthcare Inspections                                                                                                                    12
                                                                                                         CBOC and PCC Reviews at Orlando VA Medical Center, Orlando, FL



                                                                  FY 2013 Established  PC  Prospective  Wait  Times  7 Days
                                                  100%



                                                  80%
            Percentage  of  Patients Scheduled 
             Within  7 Days  of Desired  Date



                                                  60%



                                                  40%



                                                  20%



                                                   0%
                                                         OCT FY13 NOV FY13 DEC  FY13 JAN FY13 FEB  FY13 MAR  FY13 APR  FY13 MAY FY13 JUN  FY13   JUL FY13 AUG FY13 SEP  FY13
     VHA Total                                            83.5%     81.1%    82.4%     82.6%     83.2%    83.6%     84.0%     84.0%    84.1%      84.3%    84.5%     84.7%
     Orlando  (675)                                       95.1%     94.4%    94.1%     94.7%     94.4%    95.7%     96.1%     96.1%    94.7%      94.6%    94.7%     94.2%
     Viera (675GA)                                        97.5%     97.7%    98.4%     98.6%     98.3%    98.3%     98.9%     98.3%    98.1%      98.6%    98.8%     99.0%
     Daytona Beach (675GB)                                86.5%     86.8%    85.8%     80.2%     78.0%    83.9%     92.2%     93.1%    92.4%      90.8%    92.9%     89.9%
     Kissimee (675GC)                                     98.5%     99.3%    98.8%     99.2%     99.0%    98.8%     99.6%     99.8%    100.0%     99.6%    98.8%     98.7%
     Orange City (675GD)                                  98.8%     95.9%    97.1%     97.2%     91.6%    94.8%     98.2%     98.8%    98.8%      98.3%    98.4%     96.2%
     Leesburg (675GE)                                     87.7%     82.1%    81.4%     78.6%     87.2%    93.1%     96.7%     97.2%    95.2%      92.2%    89.2%     88.3%
     Clermont (675GF)                                     94.7%     93.9%    92.5%     95.2%     93.6%    97.7%     93.2%     94.3%    100.0%     97.6%    95.1%     95.5%




Data Definition.5 The percent of patients scheduled within 7 days of the desired date. Data source is the Wait Times Prospective Wait Times measures.
The total number of scheduled appointments for primary care-assigned patients in primary care clinics 322, 323 and 350. Data is collected twice a month on
the 1st and the 15th. Data reported is for the data pulled on the 15th of the month. There is no FY to date score for this measure.



VA OIG Office of Healthcare Inspections                                                                                                                                      13
                                                                                                                     CBOC and PCC Reviews at Orlando VA Medical Center, Orlando, FL


                                                                          FY 2013 Ratio of ER Encounters While on Panel to
                                                                           PC Encounters While on Panel (FEE ER Included)
                                                                18%
                                                                17%
                                                                16%
                 Percentage of ER Encounters to PC Encounters   15%
                                                                14%
                                                                13%
                                                                12%
                                                                11%
                                                                10%
                                                                 9%
                                                                 8%
                                                                 7%
                                                                 6%
                                                                 5%
                                                                 4%
                                                                 3%
                                                                 2%
                                                                 1%
                                                                 0%
                                                                      OCT FY13 NOV FY13 DEC FY13 JAN FY13   FEB FY13 MAR FY13 APR FY13 MAY FY13 JUN FY13   JUL FY13 AUG FY13 SEP FY13
         VHA Total                                                     16.3%    16.3%    16.4%    16.3%      16.3%     16.3%    16.1%   16.1%    16.0%      15.9%    15.8%    15.7%
         Orlando (675)                                                 3.7%      3.7%     3.8%     3.8%      3.8%      3.8%     3.7%     3.6%     3.5%      3.1%     2.8%
         Viera (675GA)                                                 3.1%      3.1%     3.1%     3.2%      3.3%      3.3%     3.4%     3.5%     3.5%      3.3%     3.0%      2.6%
         Daytona Beach (675GB)                                         3.8%      3.8%     3.7%     3.7%      3.6%      3.4%     3.3%     3.1%     2.9%      2.6%     2.2%      1.9%
         Kissimee (675GC)                                              3.2%      3.3%     3.1%     3.1%      3.2%      3.3%     3.4%     3.2%     3.0%      2.7%     2.5%      2.2%
         Orange City (675GD)                                           3.5%      3.5%     3.7%     3.3%      3.6%      3.8%     3.7%     3.6%     3.3%      3.0%     2.6%      2.2%
         Leesburg (675GE)                                              2.2%      2.3%     2.3%     2.3%      2.5%      2.6%     2.2%     2.1%     1.9%      1.6%     1.4%      1.1%
         Clermont (675GF)                                              2.3%      2.3%     2.4%     2.3%      2.4%      2.2%     2.0%     1.9%     1.8%      1.5%     1.3%      1.1%




Data Definition.5 This is a measure of where the patient receives his or her primary care and by whom. A low percentage is better. The formula is the total
VHA ER/Urgent Care/FEE ER Encounters WOP (including FEE ER visits) divided by the number of primary care encounters WOP with the patient’s
assigned primary care (or associate) provider plus the total VHA ER/Urgent Care/FEE ER Encounters (including FEE ER visits) WOP plus the number of
primary care encounters WOP with a provider other than the patient’s PCP/AP. Blank cells indicate the absence of reported data.
VA OIG Office of Healthcare Inspections                                                                                                                                               14
                                                                                CBOC and PCC Reviews at Orlando VA Medical Center, Orlando, FL



                                      FY 2013 2‐Day Contact Post Discharge Ratio
        100%
         90%
         80%
         70%
         60%
         50%
         40%
         30%
         20%
         10%
          0%
                                                                   Daytona Beach                      Orange City
                   VHA Total      Orlando (675)    Viera (675GA)                   Kissimee (675GC)                 Leesburg (675GE) Clermont (675GF)
                                                                      (675GB)                          (675GD)
      OCT FY13       52.8%            16.9%           33.8%            33.0%            22.5%            22.7%           26.1%            14.3%
      NOV FY13       52.9%            18.5%           33.1%            25.4%            28.6%            27.6%           21.4%             0.0%
      DEC FY13       51.5%            16.4%           25.0%            33.7%            20.7%            10.7%           28.0%            40.0%
      JAN FY13       57.2%            18.7%           39.6%            20.0%            20.0%            11.8%           10.3%             7.7%
      FEB FY13       60.4%            13.6%           38.0%            28.0%            21.7%            42.9%           27.3%            42.9%
      MAR FY13       64.4%            20.4%           36.9%            29.3%            20.0%            30.0%           32.0%            50.0%
      APR FY13       65.5%            24.7%           32.2%            36.5%            34.6%            23.8%           18.8%            55.6%
      MAY FY13       66.1%            24.7%           24.5%            40.0%            43.6%            25.0%           39.1%            25.0%
      JUN FY13       70.1%            32.0%           43.7%            45.5%            32.0%            26.7%           38.9%            55.6%
      JUL FY13       71.1%            42.6%           34.1%            53.2%            39.3%            28.6%           27.8%            25.0%
      AUG FY13       72.7%            41.0%           24.4%            45.3%            20.8%            47.1%           50.0%            33.3%
      SEP FY13       68.9%                            36.7%            63.9%            36.4%            11.1%            0.0%            14.3%


  Data Definition.5 Total Discharges Included in 2-day Contact Post Discharge Ratio: The total VHA and FEE Inpatient Discharges for assigned primary
  care patients for the reporting timeframe. Discharges resulting in death and discharges where a patient is readmitted within 2 days of discharge are
  excluded from this metric. Blank cells indicate the absence of reported data.

VA OIG Office of Healthcare Inspections                                                                                                                 15
                                   CBOC and PCC Reviews at Orlando VA Medical Center, Orlando, FL
                                                                                     Appendix C
                              VISN Director Comments


               Department of
               Veterans Affairs                                   Memorandum


           Date: February 7, 2014

          From: Director, VA Sunshine Healthcare Network (10N8)

       Subject: CBOC and PCC Reviews at Orlando VA Medical Center,
                Orlando, FL

             To: Director, Bay Pines Office of Healthcare Inspections (54SP)

                   Director, Management Review Service (VHA 10AR MRS OIG
                   CAP CBOC)

       1. I have reviewed and concur with the findings and recommendations in
          the report of the CBOC and PCC Reviews at the Orlando VA Medical
          Center.

       2. Corrective action plans have been established with planned completion
          dates, as detailed in the attached report.




           Joleen Clark, MBA, FACHE




VA OIG Office of Healthcare Inspections                                                       16
                                   CBOC and PCC Reviews at Orlando VA Medical Center, Orlando, FL
                                                                                     Appendix D
                            Facility Director Comments



               Department of
               Veterans Affairs                                   Memorandum


           Date: February 4, 2014

          From: Medical Center Director, Orlando VA Medical Center (675/00)

       Subject: CBOC and PCC Reviews at Orlando VA Medical Center,
                Orlando, FL

             To: Director, VA Sunshine Healthcare Network (10N8)



        See Appendix E (pages 18 - 20)




       Timothy W. Liezert




VA OIG Office of Healthcare Inspections                                                       17
                                   CBOC and PCC Reviews at Orlando VA Medical Center, Orlando, FL


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that panic alarms are tested as required and
testing is documented at the Kissimmee and Orange City CBOCs.

Concur

Target date for completion: February 27, 2014

Facility response:

A new process for testing the Lynx KeyPro computer-based duress system will be
initiated by 2/15/14 to be performed by the OI&T and the Police. The process for testing
includes all computers at the Kissimmee and Orange City CBOCs on a monthly basis
with results documentation available at the CBOCs and reported to the EOC
Committee. The first report of test results will be presented at the 2/27/2014 EOC
Committee meeting.

Recommendation 2. We recommended that panic alarm testing results are reported to
the EOC Committee, and repairs or corrections of alarm failures are tracked to
completion by the EOC Committee.

Concur

Target date for completion: February 27, 2014

Facility response:

The facility developed a coordinated process with the Police, OI&T, and Facilities
Management to ensure the Lynx KeyPro computer-based duress system is tested
monthly on each computer at the Kissimmee and Orange City CBOCs. The test results
will be made available to CBOC management. The test results will be reported to the
EOC Committee and, after analysis, the actions taken to correct the findings will be
included in the EOC Committee minutes and tracked to completion by the EOC
Committee. The first report will be presented at the 2/27/14 EOC meeting.
Recommendation 3. We recommended that fire drills are performed every 12 months
at the Kissimmee CBOC.

Concur

Target date for completion: February 27, 2014



VA OIG Office of Healthcare Inspections                                                       18
                                   CBOC and PCC Reviews at Orlando VA Medical Center, Orlando, FL


Facility response:

The tracking system for fire drills has been modified to ensure an alert is provided
30 days in advance of the due date for each fire drill to ensure drills are performed
timely every 12 months. The last fire drill at Kissimmee CBOC was 8/2/2013. The
process has been implemented and the next fire drill for the Kissimmee CBOC is
scheduled the week of 7/28/2014. Fire drills will be reported to the EOC Committee and
documented in minutes.

Recommendation 4. We recommended that all deficiencies identified on EOC rounds
at the Kissimmee and Orange City CBOCs are reported to the EOC Committee, and
actions taken are tracked to completion.

Concur

Target date for completion: February 27, 2014

Facility response:

The deficiencies identified on EOC rounds at the Kissimmee and Orange City CBOCs
were reported electronically to the EOC Committee members with actions and
completion status noted on 2/03/2014. The formal EOC review of this information will
occur at the 2/27/2014 meeting. The review of EOC rounds deficiencies has been
identified as a standing agenda item for the EOC Committee, to include both the
deficiencies and tracking to completion. Additionally, the use of the new tablet to
capture information electronically on rounds was deployed 1/28/2014 with the automatic
generation and tracking of deficiencies and completion in a standard format to be
presented at the EOC Committee.

Recommendation 5. We recommended that CBOC/PCC RN Care Managers complete
MI and health coaching training within 12 months of appointment to PACT.

Concur

Target date for completion: February 4, 2014

Facility response:

All current CBOC/PCC RN Care Managers who had not completed motivational
interviewing training within 12 months of appointment to PACT were trained by
2/4/2014. All current CBOC/PCC RN Care Managers who had not completed health
coaching training within 12 months of appointment to PACT were trained by 1/22/2014.
The process has been revised in which the RN Care Manager Unit Specific Orientation
checklist was modified (completed 1/20/2014) to include the date within the first
12 months of appointment to PACT that the new RN Care Manager is scheduled for
motivational interviewing and health coaching training. Prompts and actions on the
checklist are reviewed at 30-60-90-180 day intervals to ensure completion. Additionally,
the Health Promotion Disease Prevention Coordinator will report the percentage of


VA OIG Office of Healthcare Inspections                                                       19
                                   CBOC and PCC Reviews at Orlando VA Medical Center, Orlando, FL


compliance with this required training of RN Care Managers within 12 months of
appointment to PACT to the PACT Steering Committee quarterly.




VA OIG Office of Healthcare Inspections                                                       20
                                   CBOC and PCC Reviews at Orlando VA Medical Center, Orlando, FL
                                                                                     Appendix E


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Darlene Conde-Nadeau, MSN, ARNP, Team Leader
Contributors            Charles Cook, MHA
Other                   Lin Clegg, PhD
Contributors            Matt Frazier, MPH
                        Zhana Johnson, CPA
                        Jeff Joppie, BS
                        Karen McGoff-Yost, LCSW
                        Jennifer Reed, RN, MSHI
                        Victor Rhee, MHS
                        Patrick Smith, M. Stat
                        Marilyn Stones, BS
                        Mary Toy, RN, MSN
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                       21
                                   CBOC and PCC Reviews at Orlando VA Medical Center, Orlando, FL
                                                                                     Appendix F

                                   Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, VA Sunshine Healthcare Network (10N8)
Director, Orlando VA Medical Center (675/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Bill Nelson, Marco Rubio
U.S. House of Representatives: Ron DeSantis, Alan Grayson, John L. Mica, Daniel
 Webster


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                       22
                                        CBOC and PCC Reviews at Orlando VA Medical Center, Orlando, FL
                                                                                          Appendix G

                                                   Endnotes 


1
    References used for the EOC review included:
	 US Access Board, Americans with Disabilities Act Accessibility Guidelines (ADAAG), September 2, 2002.
	 US Department of Health and Human Services, Health Insurance Portability and Accountability Act, The
     Privacy Rule, August 14, 2002.
	 US Department of Labor, Occupational Safety and Health Administration, Laws and Regulations.
	 US Department of Labor, Occupational Safety and Health Administration, Guidelines for Preventing Workplace
   Violence, 2004.
	 Joint Commission, Joint Commission Comprehensive Accreditation and Certification Manual, July 1, 2013.
	 VA Directive 0324, Test, Training, Exercise, and Evaluation Program, April 5, 2012.
	 VA Directive 0059, VA Chemicals Management and Pollution Prevention, May 25, 2012.
	 VA Handbook 6500, Risk Management Framework for VA Information System, September 20, 2012.
	 VHA Center for Engineering, Occupational Safety, and Health, Emergency Management Program Guidebook,
   March 2011.
	 VHA Center for Engineering, Occupational Safety, and Health, Online National Fire Protection Association
   Codes, Standards, Handbooks, and Annotated Editions of Select Codes and Standards, July 9, 2013.
	 VHA Deputy Under Secretary for Health for Operations and Management, Memorandum: Environmental
   Rounds, March 5, 2007.
	 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
	 VHA Directive 2012-026, Sexual Assaults & Other Defined Public Safety Incidents in VHA Facilities,
   September 27, 2012.
	 VHA Handbook 1006.1, Planning and Activating Community-Based Outpatient Clinics, May 19, 2004.
	 VHA Handbook 1330.01, Health Care Services for Women Veterans, May 21, 2010.
	 VHA Handbook 1850.05, Interior Design Operations and Signage, July 1, 2011.
2
  References used for the AUD review included:
	 National Center for Health Promotion and Disease Prevention (NCP), Veteran Health Education and Information
   (NVEI) Program, Patient Education: TEACH for Success. Retrieved from
   http://www.prevention.va.gov/Publications/Newsletters/2013/HealthPOWER_Prevention_News_Winter_2012_2
   013_FY12_TEACH_MI_Facilitator_Training.asp on January 17, 2014.
	 VHA Handbook 1120.02, Health Promotion Disease Prevention (HPDP) Program, July 5, 2012.
	 VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics,
   September 11, 2008.
3
  References used for the Medication Management review included:
	 VHA Directive 2011-012, Medication Reconciliation, March 9, 2011.
	 VHA Directive 2012-011, Primary Care Standards, April 11, 2012.
	 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006.
	 VHA Handbook 1108.07, Pharmacy General Requirements, April 17, 2008.
	 Joint Commission, Joint Commission Comprehensive Accreditation and Certification Manual, July 1, 2013.
4
  References used for the DWHP review included:
	 VHA Deputy Under Secretary for Health for Operations and Management, Memorandum: Health Care Services
   for Women Veterans, Veterans Health Administration (VHA) Handbook 1330.01; Women’s Health (WH)
   Primary Care Provider (PCP) Proficiency, July 8, 2013.
	 VHA Handbook 1330.01 Health Care Services for Women Veterans, May 21, 2010.
5
  Reference used for PACT Compass data graphs:
	 Department of Veterans’ Affairs, Patient Aligned Care Teams Compass Data Definitions, August 29, 2013.




VA OIG Office of Healthcare Inspections                                                                    23
